No.

 

 

In the
Supreme Court of the United States

MICHAEL ANTHONY CASILLAS,
Petitioner,
v.

STATE OF MINNESOTA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF MINNESOTA

PETITION FOR WRIT OF CERTIOARI

AFFIDAVIT OF SERVICE

Stephen M. West, states that all parties required to be
served have been served and that three true and correct
copies of the Petition for Writ of Certiorari was served
on the persons listed below on the 20th day of May, 2021,
by depositing them with the United States Post Office,
with First Class Postage prepaid.
KEITH ELLISON

Minnesota Attomey General

445 Minnesota Street, Suite 1400
St. Paul, MN 55101

KATHY KEENA

Dakota County Attorney

ANNA LIGHT

Assistant Dakota County Attorney
Dakota County Judicial Center
1560 Highway 55

Hastings, MN 55033

fee

Stephen M. West

Subscribed and sworn to before me this 20th day of
May, 2021.

bez

Notary Public

 
   
 

     

EDWIN R. MOTCH
NOTARY PUBLIC - MINNESOTA ©
My Commission Expires Jan. 31, 2025 ‘
